No. 21-1511

IN THE SUPREME COURT OF THE UNITED STATES
______________________________________________________________________________
DAX ELLIOT CARPENTER,
Petitioner,
v
JULIE ELIZABETH CARPENTER,
Respondent.
______________________________________________________________________________

BRIEF IN OPPOSITION TO PETITION FOR WRIT OF CERTIORARI

Lawrence J. Emery, Counsel of Record
Lawrence J. Emery, P.C.
Attorney for Respondent
924 Centennial Way, Suite 470
Lansing, MI 48917
(517) 337-4866
ljemery@prodigy.net

TABLE OF CONTENTS
Index of Authorities ................................................................................................................... iv
Counter-Statement of Questions Presented................................................................................ vi
Statement of the Case .................................................................................................................. 1
Counter-Statement of Facts ......................................................................................................... 3
Argument:
I. THE EXISTING LAW REGARDING THE AUTHORITY OF THE STATES TO USE
FEDERALLY MANDATED CHILD SUPPORT FORMULAS WHICH INCLUDE
VETERANS SERVICE CONNECTED DISABILITY BENEFITS AS INCOME
CONSTITUTES AN APPROPRIATE ACCOMMODATION OF FEDERAL AND STATE
INTERESTS IN PROVIDING FOR THE WELFARE OF THE VETERAN AND HIS
DEPENDENTS. ........................................................................................................................ 10
A. The statute creating the Michigan Child Support Formula applicable to this case,
MCL 552.650, mandates the inclusion of veterans disability benefits as income for
purposes of establishing the appropriate level of child support................................ 10
B. Congress has mandated that the states include all of a noncustorial parent’s
earnings, income and other evidence of ability to pay. ............................................... 11
II. FEDERAL LAW REGARDING VETERANS ADMINISTRATION DISABILITY
BENEFITS DOES NOT PRECLUDE STATES FROM CONSIDERING SUCH
BENEFITS AS INCOME FOR PURPOSES OF DETERMINING THE APPROPRIATE
LEVEL OF CHILD SUPPORT. STATUTES ENACTED FOLLOWING THE ROSE
CASE DO NOT CONFLICT WITH STATE COURT CHILD SUPPORT GUIDELINE
FORMULAS COUNTING THOSE BENEFITS AND THEREFORE, DO NOT PREEMPT
THE STATE COURT ACTION IN THIS CASE. .................................................................. 14
A. By failing to properly object to the use of the Michigan child support formula in
lower court proceedings on the basis of federal preemption, Petitioner has failed to
preserve this issue for review and certiorari should be denied. ................................ 14
B. Rose v Rose, 481 US 619; 107 S Ct 2029; 95 L Ed 2d 599 (1987) held that VA
disability benefits may be considered by state courts in determining the level of child
support even where those benefits are the sole source of income for the veteran and
would require that he pay his support from the benefit he receives. ........................ 15
C. 10 USC §1408 did not create a federal exemption for Petitioner’s disability
benefits barring them for consideration in determining the what level of child
support is best for his family.......................................................................................... 17
D. 42 U.S.C.. § 659 was designed to afford state courts greater access to by a
veterans dependents to his disability benefits for purposes of paying child and
spousal support and does not exempt Petitioner-Appellant’s VA disability benefits
ii

from consideration for purposes of determining the appropriate amount of child
support. ......................................................................................................................... 21
E. The Michigan Court of Appeals opinion correctly applied the doctrine of federal
preemption and correctly interprets the statutes involved in light of and as required
by this Court’s decision in Rose v Rose, supra............................................................ 25
III. PETITIONER HAS PROVIDED NO COGENT REASON FOR THIS COURT TO
UNDERTAKE A REVIEW OF ITS DECISION IN ROSE V ROSE AND OVERTURN
SETTLED LAW RELIED UPON AND IMPLEMENTED BY THE STATES. ................. 27
A. Statistical data regarding claimed increases in the occurrence and severity of
service connected injuries is not properly before the Court because it was not made
a part of the record in either the state trial court or appellate courts. Moreover,
Petitioner offered no evidence that this data was used by Congress in formulating a
change in the law regarding the ability of state courts to consider disability benefits
in determining the level of child support..................................................................... 27
B. The apportionment procedure was intended to adjudicate claims that a veteran’s
use of his disability benefit fails to fulfill his responsibility for child support in the
context of what the state courts have ordered............................................................. 29
C. Congressional enactments regarding limits on the accessibility of disability
benefits to legal process do not constitute evidence that Congress intended there was
no room for the States to act when determining the appropriate level of a veteran’s
support obligation.......................................................................................................... 30
D. This Court’s decision in Howell did not overrule or undermine Rose and did not
suggest that State child support guideline laws are preempted. ............................... 32
E. Current law with regard to the right of States to consider VA disability benefits
as income for purposes of child support determination does not “repurpose” federal
law creating those benefits. ........................................................................................... 34
F. The fact that Congress is not expressly preclude the State courts from using VA
disability benefits in child support calculations is significant evidence that the
current law is an appropriate accommodation of the state and federal laws dealing
with the relationship between the federal benefit and the state laws regarding how
those benefits relate to the appropriate level of child support. ................................. 36

Relief ........................................................................................................................................... 38

iii

INDEX OF AUTHORITIES
Cases:
Allen v. Allen, 650 So. 2d 1019, 1019–20 (Fla. Dist. Ct. App. 1994)....................................... 21
Alwan v Alwan, 70 Va App 599; 830 SE 2d 45 (2019) ............................................................. 22
Batcher v Wilkie, 975 F. 3d 1333, 1335 (2020) ......................................................................... 29
Casey v. Casey, 79 Mass. App. Ct. 623, 634–35, 948 N.E.2d 892, 901–02 (2011)................... 21
City of Springfield v Kibbe, 480 U.S. 257, 107 S. Ct. 1114, 94 L. Ed. 2d 293 (1987) .............. 14
Howell v Howell, 581 U.S. ____, 137 S Ct. 1400, 197 L Ed 2d 781 (2017) .................... 9, 14, 15
In re Braunstein, 236 A.3d 870 (2020) ...................................................................................... 22
In re Marriage of Anderson, 522 N.W.2d 99, 101–02 (Iowa Ct. App. 1994) .......................... 17
In re Marriage of Hopkins, 142 Cal.App.3d 350, 360, 191 Cal.Rptr. 70, 77 (1983).................20
In re Marriage of Stanton, 190 Cal. App. 4th 547, 551, 118 Cal. Rptr. 3d 249, 252 (2010) .. 16
In re Marriage of Wojcik, 362 Ill. App. 3d 144, 164–67, 838 N.E.2d 282, 299–301 (2005)... 17
Keinz v. Keinz, 290 Mich.App 137, 141; 799 NW2d 576 (2010) ............................................. 22
Kitchen v. Kitchen, 465 Mich. 654, 661; 641 NW2d 245 (2002).............................................. 23
Loving v. Sterling, 680 A.2d 1030, 1031–33 (D.C. 1996) .........................................................17
Lesh v Lesh, ___ NC App __, 809 SE 2d 890 (2018) ................................................................ 26
McCarty v. McCarty, 453 U.S. 210 (1981)................................................................................ 18
Massey v. Mandell, 462 Mich. 375, 379; 614 NW2d 70 (2000) ............................................... 23
Murphy v. Murphy, 302 Ark. 157, 158–59, 787 S.W.2d 684, 684–85 (1990)........................... 21
Nelms v. Nelms, 99 So. 3d 1228, 1230–33 (Ala. Civ. App. 2012) ............................................. 17
Parker v. Parker, 750 P.2d 1313, 1313–15 (Wyo. 1988)........................................................... 21
Paylor v. Allegheny Cty. Family Div./Domestic Relations, No. 2:16CV1071, 2017 WL
4235944, at *8–9 (W.D. Pa. Sept. 25, 2017) ................................................................. 16
People v. Grant, 445 Mich. 535, 552–553, 520 N.W.2d 123 (1994)......................................... 12
Repash v. Repash, 148 Vt. 70, 72–74, 528 A.2d 744, 745–46 (1987) ...................................... 20
Rose v Rose, 481 US 619; 107 S Ct 2029; 95 L Ed 2d 599 (1987)...........1, 10, 11, 15, 18, 30, 33
Smith v. Khouri, 481 Mich. 519, 526; 751 NW2d 472 (2008)................................................. 23
Varran v Granneman, 312 Mich App 591, 601; 880 N.W. 2d 242, 248 (2015) .................... 1

iv

Statutes/Regulations:
MCL 552.605 ............................................................................................................................ 10
MCL 552.519. ............................................................................................................................ 10
MCL 600.2591(1)........................................................................................................................ 22
10 U.S.C. § 1408 .......................................................................................................12, 17, 18, 20
10 U.S.C. § 1201........................................................................................................................ 20
38 U.S.C. § 3105 ....................................................................................................................... 20
42 U.S.C.. § 659 ...................................................................................................................12, 23
42 U.S.C. 667 ........................................................................................................................11, 27
45 C.F.R. § 302.56..................................................................................................................11, 27
38 U.S.C. §1115 ...................................................................................................................... 27
38 USC §3107(a)(2) ................................................................................................................ 5
38 U.S.C. §5301 ....................................................................................................................... 29
38 U.S.C. §5307 ......................................................................................................................... 29
38 C.F.R. §3.450(a)(1)(ii) ............................................................................................. 29, 35, 37

Court Rules:
MCR 7.202(6)(a)(I).................................................................................................................... 1
MCR 7.212(B)(4) .................................................................................................................... 1
MCR 7.202(6)(a)(iv) ................................................................................................................ 1
MCR 7.203(A)(1) .................................................................................................................... 1, 2
MCR 7.202(6)(a)(iii-v) ............................................................................................................. 2
MCR 7.216(C).............................................................................................................................. 4
MCR 3.215(f)(3)......................................................................................................................8, 14

Miscellaneous:
2017 Michigan Child Support Formula Manual § 2.01, 2017 MCSF § 2.01...................... 11
5th Amendment United States Constitution ............................................................................... 8
S. REP. 97-502, S. Rep. No. 502, 97TH Cong., 2ND Sess. 1982, 1982 U.S.C.C.A.N. 1596, 1982
WL 26722 (Leg.Hist.)............................................................................................................... 18
v

COUNTER- STATEMENT OF ISSUES PRESENTED
1. Whether this Court should reverse and/or abandon a 30 year old precedent established
in Rose v Rose, 481 U.S. 619; 107 S. Ct. 2029; 95 L. Ed. 2d. 599 (1987) which afforded state
courts flexibility in dealing with their responsibility to insure the financial support of minor
children in cases where a divorced parent is entitled to veterans disability benefits? Should this
Court reject or modify the long held principal that federal preemption of state court domestic
relations law is limited to instances where Congress has expressly declared such preemption and
where state law conflicts with federal law in such a manner as to do “major damage” to clear and
substantial federal interests?
2. Whether Congressional enactments in regard to the creation, award and payment of
VA benefits for service connected disability conflict with federally mandated state law child
support guideline enactments which recognize those benefits as income for purposes of
determining the appropriate amount of support where those VA disability benefits were created
for the purpose of providing financial support for both the veteran and his dependent children?
3. Whether the post-Rose amendments to federal statutes dealing with access to VA
disability benefits create a conflict with the state law enactments which recognize them as
income for the purpose of determining the appropriate level of child support and whether those
Congressional declarations constitute a positive and direct enactment of federal preemption over
state law where those declarations fail to state such a purpose and fail to provide an appropriate
alternative method of insuring that the veteran’s dependants would receive any share of those
benefits or a means of calculating an amount of support which is appropriate?

vi

4. Whether state law enactments which include VA disability benefits as income for
purposes of determining the appropriate level of support does major damage to clear and
substantial federal interests?
5. Whether the interpretation of the Congressional enactments relied upon by Petitioner
is so absurd and illogical as to require rejection where that interpretation is not premised upon
any clear and substantial federal interest, where no evidence was presented to the lower courts
identifying such federal interest and where Petitioner has failed to establish standing to assert that
he is in the class of individuals who he claims are entitled to having his disability benefits
exempt for consideration in determining the level of child support?
6. Whether this Court should adopt an interpretation of federal enactments which
precludes state family law courts from considering VA disability benefits as income for purposes
of determining the appropriate level of child support, a responsibility long entrusted to the states
and recognized by Congress as its mandate?
7. Whether this Court should adopt an interpretation of federal law which has been
uniformly rejected by this Court and state courts throughout this country and which would
require massive recalculations of child support at great expense to the states, their courts and
their citizens and require the VA to undertake untold number of apportionment claims?

vii

STATEMENT OF THE CASE
Petitioner declares that federal law preempts the States, including the State of Michigan,
from considering his VA disability benefits as income for purposes of determining and ordering
the amount of child support he must pay under the federally mandated child support guidelines.
These guidelines were designed to insure that child support reflects the real cost of rearing
children, to improve the consistency and uniformity of child support awards and to improve
efficiency in the adjudication and collection of child support. Congress required states to design
guideline formulas that reflected the paying parent’s ability to pay and required orderly and
efficient enforcement of them in their courts as a condition of receiving federal assistance for
dependent children. There is no express Congressional prohibition on the States barring their use
of VA disability benefits in calculating support. Instead, Petitioner asserts that federal statutes
limiting use of state legal processes with respect to the payment of those benefits have implied
such a prohibition. His arguments have already been rejected by this Court. Over 30 years ago
the same preemption arguments were rejected in Rose v Rose, 481 U.S. 619; 107 S. Ct. 2029; 95
L. Ed. 2d. 599 (1987). State courts deciding the question have uniformly followed this case and
rejected his claim. State courts have complied with the Congressional mandate to create and
enforce child support guidelines, including consideration of VA disability benefits as income.
Petitioner cannot cite a single state or federal decision which has adopted his claim of federal
preemption. There are no state courts of last resort that have issued decisions which conflict with
the resolution of this issue by Michigan Courts which relies on Rose. There are no federal
appeals court decisions in conflict with the Rose decision.
Petitioner’s claimed statutory support for preemption is premised on the false assumption
that federal preemption in this area is presumed and absolute. This Court has long adhered to the
1

principle that in the area of domestic relations there is a strong presumption against preemption
of state law and regulation. This principle guided the Rose decision adjudicating the very issues
Petitioner has raised here. Nowhere in his Petition has he mentioned that Congress mandated the
very system the State of Michigan put in place to meet Congressional requirements and goals
with regard to the implementation and collection of child support for dependent children.
Moreover, Petitioner’s conduct renders him unworthy of the attempt to vest him with
complete control over his disability benefits. Years after his divorce, he convinced the state court
that the disability qualifying him for veterans benefits prevented him from paying support in the
amount in effect before his disability limited his earning capacity and obtained a significant
reduction. Despite agreeing that this reduction was subject to retroactive modification based
upon his becoming eligible for VA disability benefits, he fraudulently concealed receipt of
disability benefits for the very time period for which the court reduced his support. He received
and spent over $131,000.00 in disability benefits between May, 2013 and April, 2017. He
presented no evidence in the Michigan courts establishing that he spent any of it on the support
of his two (2) minor children, both of whom were in the custody of Respondent. Once his fraud
was discovered, Michigan courts ordered retroactive modification of his support. He has yet to
pay the resulting arrearage of over $54,000. He wants this Court to change its long held
approach to this issue to absolve him of that responsibility and to reduce his current support order
because it included his VA disability benefit in determining the amount. He claims that federal
law allows him to retain every red cent of his tax free disability benefits. He claims that he and
every other veteran receiving service connected disability benefits that include enhanced amounts
for minor children in the other parents custody and who have not retired from the military are

2

exempt from having the level of his or her child support determined by the amount of those
benefits.
The statutes Petitioner relies upon to support his preemption claim do not conflict with
state court legislation which include veterans disability benefits as income in determining
support. Petitioner attempts to create a conflict by adopting an absolute preemptive bar where
Congress has failed to do so. Congress has not expressly enacted a bar to state law dealing with
these benefits. Amendments enacted after this Court’s decision in Rose affecting the laws
identified by Petitioner could have easily preempted state inclusion of these benefits to make
them untouchable but did not. Petitioner’s fictional construct designed to create a conflict that
does not exist should not be basis for this Court to undertake the review he requests.
COUNTER-STATEMENT OF FACTS
Petitioner provided virtually no factual background for the issues in this case in his
Petition for Writ of Certiorari. He elected to include what he claims are “relevant facts”, i.e.
legal arguments made in the trial court supporting his exemption theory. However, the context in
which these benefits came to be included in his child support determination and the process by
which these benefits became the basis for the trial court’s decision is both relevant and decisive.
Therefore, Respondent is compelled to provide this vital information.
Petitioner enlisted in the army in April, 2010 for four (4) years. Before he had completed
his enlistment, he was discharged in September, 2012 at his request due to hardship related to the
service connected injury he incurred. (Respondent’s Appendix A, 5-5-2017 Tr 10-11) Petitioner
failed to provide any evidence that he was retired, eligible for military retirement or had waived
military retirement benefits to receive VA disability benefits at this evidentiary hearing.
Following his discharge he was employed at different businesses, but ultimately worked in a
3

part-time capacity earning minimal income claiming he was disabled due to a service connected
injury incurred during his military service. As a result, he sought and obtained a reduction in his
child support. On January 7, 2013, three (3) separate Uniform Child Support Orders were
entered by agreement of the parties dramatically reducing Petitioner-Appellant’s child support
obligation from $543.00 to $168.00 per month. (Respondent’s Appendix B, Docket Entry No.
98) Each order also contained the following provision:
“Respondent reserves the right to petition to modify this order retroactively should it be
determined that Petitioner receives or is granted veteran’s benefits that could have been
included in his income under the child support formula and/or veteran’s benefits that
could be apportioned as child support.”
In return for a 69% reduction in his monthly support obligation, he agreed to have his support
retroactively amended should he be awarded VA disability benefits. To preserve Respondent’s
right to retroactive modification based upon the receipt of those benefits, she filed a Motion to
Increase Child Support on January 2, 2014. (Docket Entry No. 97)
At a show-cause proceeding in late November or early December, 2016, PetitionerAppellant was asked about his pursuit of VA disability benefits. He acknowledged that he had
requested benefits, but no decision had been made by the VA. The Friend of the Court referee
presiding over this proceeding instructed Petitioner-Appellant to bring evidence of the status of
his claim to the next show cause which was scheduled for January 5, 2017. At that proceeding,
Petitioner-Appellant presented a letter from the VA indicating that he had been awarded VA
disability and that his benefit was over $3,400.00 per month. (Respondent’s Appendix C, 5-52017 Tr 16-22) Armed with this information, Respondent-Appellee filed an Amended Motion to
Increase Child Support on January 24, 2017. (Docket Entry No. 121) This motion was then

4

referred to the Friend of the Court for initial disposition on February 17, 2017. (Docket Entry
No. 125)
Referee hearings on Respondent’s amended motion were commenced on May 5, 2017.
At that hearing, Petitioner repeatedly claimed the 5th Amendment on questions posed to him
about his receipt of VA disability benefits. He refused to say when those benefits commenced
and the amount he was receiving. (Respondent’s Appendix D, 5-5-2017 Tr 20-23) After a
counsel conferred off-the-record, the parties indicated to the Referee that in return for a
stipulation as to an exhibit from the VA District Counsel’s office showing the dates and amounts
Petitioner had received in VA disability benefits since they were instituted, Respondent would
consider dismissing contempt proceedings against Petitioner. (Respondent’s Appendix E, 5-52017 Tr 24-25) Petitioner then filed a request for apportionment of his benefits with the VA
pursuant to 38 USC §3107(a)(2). The VA denied this request because Petitioner lacked standing
to make a such a request. (Respondent’s Appendix F, Exhibit 2, 7-17-2017 Tr 3-18)
Petitioner admitted that he applied for VA disability benefits in 2012 and claimed that he
began receiving them in 2014. (Respondent’s Appendix G, 7-17-2017 Tr 22-23) However, the
stipulated record of benefits showed that he received a lump sum payment in the amount of
$17,211.00 on November 1, 2013 the very month that he signed the Uniform Child Support
Order that reduced his support from $534.00 to $168.00. (Respondent’s Appendix H - Exhibit 4;
7-17-2017 Tr 31) In other words, Petitioner failed to disclose the receipt of a significant amount
of disability benefits deemed income for purposes of child support at the same time he was
telling Respondent and the Friend of the Court he was receiving part-time pay that justified only
$168.00 per month in support. Not only did he fail to disclose this information, he signed the
5

proposed order which included a provision that his receipt of VA benefits would retroactively
impact his support obligation. For months he fooled everyone. However, since he could not
bring himself to pay even the minimal $168.00 support, despite receiving thousands of dollars in
VA benefits, the Friend of the Court issued show cause proceedings for non-payment. It was
during this process that the award and receipt of benefits was finally discovered and
acknowledged by Petitioner. (Respondent’s Appendix I, 7-17-2017 Tr 30) As Respondent’s
Appendix H, Exhibit 4 shows, from 2012 to April 2017, Petitioner received over $131,000.00 in
VA disability benefits and paid no child support based on that un disclosed income. He
acknowledged that his application for VA disability was based on his representation that the two
(2) children he is obligated to support in this case were listed as dependents to enhance the
amount of his benefit. (Respondent’s Appendix J, 7-17-2017 Tr 32, 36-37)
Petitioner claimed he was not required to disclose his VA disability benefits because it
was not income for any purpose under the law. (Respondent’s Appendix K, 7-17-2017 Tr 33-35,
85-86) He claimed that he spent every cent of the $131,000.00 he received in benefits.
(Respondent’s Appendix L, 7-17-2017 Tr 67) Nothing was reserved in case he had to pay
retroactive support in accordance with the language in the support orders he signed and agreed to
in November, 2013. The language of those orders clearly recognized that those benefits would
impact Petitioner’s child support. See Respondent’s Appendix B.
Other than his testimony, Petitioner presented no evidence during the referee hearing.
Respondent filed a trial brief arguing that the child support guideline formula expressly included
Petitioner’s VA disability benefits as income to be considered in determining the level of support
and that the resulting support amount should be adjusted retroactively based on the agreement of
6

the parties and the Petitioner’s knowing and intentional refusal to report the receipt of these
benefits. Petitioner filed his responsive trial brief, a collection of disjointed, numbered
paragraphs in which he claimed that federal law prohibited the circuit court from considering his
VA disability benefits as income, but did not claim federal preemption and did not present the
theory espoused in his appeals. (Petitioner’s Appendix D, pp 22a-30a)
The Friend of the Court Referee issued detailed findings within the statutory period and
presented a proposed order increasing Petitioner’s child support retroactive to May 1, 2013 in an
amount consistent with the Michigan Child Support Formula, including his disability benefits..
The Referee found the legal arguments offered by Petitioner “inapplicable, unsupported,
confusing, legally-contorted and totally unpersuasive. ... [B] ased on nothing more than a selfish,
self-serving desire to avoid being responsible for and paying any meaningful child support to
Respondent Mother ...” The Referee found that Petitioner Father willfully concealed over
$130,000.00 in income for a four-year period and that his credibility was suspect because he
made false statements to the Referee during the show cause proceedings and repeatedly refused
to provide details about the receipt of VA disability benefits on 5th Amendment grounds during
the hearing on Respondent’s motion to increase support. Finding that Petitioner had made false
statements and had engaged in conduct which unreasonably protracted the hearing, the Referee
also awarded Respondent-Appellee sanctions under MCR 3.215(f)(3). (Respondent’s Appendix
M - Proposed Referee Order) Petitioner filed a written objection to the Referee’s findings
claiming that “FOC calculations” were inaccurate as to how much he had received in benefits
and that inclusion of VA disability benefits violated MCSF 2.01, a provision of the child support
formula that was irrelevant. He did not claim that his disability benefits were exempt from
7

support guideline applications due to federal preemption. (Respondent Appendix N, Objection
to Referee Recommendation, Docket Entry No. 142) Petitioner failed to schedule his objections
for hearing and the proposed order submitted by the Referee was entered by the Court. Petitioner
then filed a Motion to Set Aside the recommended order claiming that there was a substantial
defect in the proceedings. (Docket Entry No. 144) He amended this motion to include a claim
that Respondent’s counsel had acted improperly in obtaining VA records showing the date and
amount of each monthly benefit he had received. (Respondent’s Appendix O, Amended Motion
to Set Aside Order, Docket Entry No. 147). Petitioner filed no brief in support of these motions.
These motions never challenged the order submitted by the Referee on the grounds that federal
law pre-empted the Michigan statute creating the child support formula provision requiring the
inclusion of VA disability benefits as income. Nowhere in these documents did Petitioner claim
as he does in this appeal, that his VA disability benefits were precluded from consideration in
determining the amount of child support.
Petitioner argued these motions before the Circuit Court Judge on February 28, 2018. At
that hearing he did make a claim that VA disability benefits were excluded from income based
upon case law from the United States Supreme Court, i.e. Howell v Howell.1 However, he was
unable to show the trial judge how the cited case overruled the Rose case and could not even
provide the Court with a proper citation. He offered no support for his federal preemption
challenge. He cited no case or statute and made no attempt to provide a logical legal rationale
for his argument. The Court remarked: “... [T]here’s nothing in this motion that I would consider

1

Howell v Howell, 581 US ___; 137 S Ct 1400; 197 L Ed 2d 781 (2017).

8

a meritorious defense because you haven’t outlined it.” (2-28-2018 Tr 7; Respondent’s
Appendix A) The Court refused to set aside the recommended order. The Court also made the
determination of the amount of support, including the retroactive amounts, fully enforceable.
The Court also made awarded sanctions against Petitioner and his attorney under MCR
3.215(F)(3) because the motion was deemed frivolous. An order regarding all of these matters
was entered on the day of the hearing. (Respondent’s Appendix A) A judgment in the amount of
$3,310.46 was entered on April 20, 2018 as sanctions against both Petitioner and his attorney,
jointly and severally. Neither Petitioner nor his counsel have paid these sanctions.
Petitioner then filed an appeal of right from the revised child support order and the order
regarding sanctions. While Petitioner had an appeal of right from the sanctions order, the revised
child support order was not a final order and not subject to an appeal as of right.
The Court of Appeals issued its decision in an opinion dated January 30, 2020. See Slip
Opinion, Petitioner’s Appendix A. The Court affirmed the revised retroactive support order
finding that Petitioner’s legal claims were “devoid of arguable legal merit” given the United
States Supreme Court decision in Rose v Rose, 481 US 619; 17 S Ct 2029; 69 L Ed 2d 478
(1987). The award of sanctions by the trial court was also affirmed. (Slip Opinion p 8.)
The Michigan Court of Appeals refused to award appellate sanctions against Petitioner, one
judge indicating that his appeal was frivolous and the other two finding that it was not.

9

ARGUMENT
I. THE EXISTING LAW REGARDING THE AUTHORITY OF THE STATES TO USE
FEDERALLY MANDATED CHILD SUPPORT FORMULAS WHICH INCLUDE
VETERANS SERVICE CONNECTED DISABILITY BENEFITS AS INCOME
CONSTITUTES AN APPROPRIATE ACCOMMODATION OF FEDERAL AND STATE
INTERESTS IN PROVIDING FOR THE WELFARE OF THE VETERAN AND HIS
DEPENDENTS.
A. The statute creating the Michigan Child Support Formula applicable to this case,
MCL 552.650, mandates the inclusion of veterans disability benefits as income for purposes
of establishing the appropriate level of child support.
MCL § 552.605 provides:
“(1) If a court orders the payment of child support under this or another act of the state,
this section applies to that order.
(2) Except as otherwise provided in this section, the court shall order child support in an amount
determined by application of the child support formula developed by the state friend of the court
bureau as required in section 19 of the Friend of the Court Act, MCL 552.519. ...”
The Michigan Child Support Formula provides as follows:
“2.01(A) The term “net income” means all income minus the deductions and adjustments
permitted by this manual. A parent's “net income” used to calculate support will not be the same
as that person's take home pay, net taxable income, or similar terms that describe income for
other purposes.
2.01(B) The objective of determining net income is to establish, as accurately as possible, how
much money a parent should have available for support. All relevant aspects of a parent's
financial status are open for consideration when determining support.

10

2.01(C) Income includes, but is not limited to, the following:
*
*
*
(4) Military specialty pay, allowance for quarters and rations, housing, veterans' administration
benefits, G.I. benefits (other than education allotment), or drill pay.
2017 Michigan Child Support Formula Manual § 2.01, 2017 MCSF § 2.01
B. Congress has mandated that the states include all of a noncustorial parent’s earnings,
income and other evidence of ability to pay.
Federal law requires that states establish guidelines for child support. Those guidelines
create a rebuttable presumption that the amount of support determined by application of the
guidelines is correct. 42 U.S.C. §667. Congress enacted this system and it became effective in
1987. In the same year, this Court decided Rose v Rose, 481 US 619; 107 S Ct 2029; 95 L Ed
2d 599 (1987) holding that state courts were not precluded from using VA disability benefits as
income in determining and awarding child support.
Regulations to implement this statute defined income broadly and declared that the states
must take into consideration all earnings and income of the noncustodial parent.:
“(a) Within 1 year after completion of the State's next quadrennial review of its child support
guidelines, that commences more than 1 year after publication of the final rule, in accordance
with § 302.56(e), as a condition of approval of its State plan, the State must establish one set of
child support guidelines by law or by judicial or administrative action for setting and modifying
child support order amounts within the State that meet the requirements in this section.
(b) The State must have procedures for making the guidelines available to all persons in the
State.
(c) The child support guidelines established under paragraph (a) of this section must at a
minimum:
(1) Provide that the child support order is based on the noncustodial parent's earnings, income,
and other evidence of ability to pay that:
(i) Takes into consideration all earnings and income of the noncustodial parent (and at the State's
discretion, the custodial parent)” 45 C.F.R. § 302.56.

11

Petitioner asks this Court to reverse or ignore a 30 year old precedent which allows the
states to include these benefits in calculating child support. He claims Congress created a benefit
which is exempt from these calculations. He is unable to cite any statute which declares such an
exemption. Instead, he relies upon an inference that certain language in statutes regulating the
extent to which a state is able to assign or allocate those benefits. While he argues these statutes
expressly prohibit the state from counting these benefits in computing support, he ignores the
Congressional directive to the contrary. He does not mention that when the amendments to these
statutes, i.e. 10 USC §1408 and 42 USC §659, were passed, state courts had a long history of
using VA disability benefits in calculating presumptive child support levels. Despite that history,
Congress did not expressly provide that a state court was prohibited from using these benefits in
federally mandate guideline calculation in either of these enactments. Congress did not provide a
procedural method or the institutional resources by which the VA would decide child support
levels consistent with these mandatory guidelines in every state in regard to every divorce where
a veteran entitled to disability benefits under the apportionment procedure. Yet there is an
express Congressional declaration that in determining support the states must at minimum
“provide that the child support order is based on the noncustodial parent’s earnings, income and
other evidence of ability to pay that ... [t]akes into consideration all earnings and income of the
noncustodial parent.”
Petitioner claims that two federal statutes, 10 USC §1408 and 42 USC §659, exempt him
from the operation of this state statutory scheme. Petitioner claims Michigan’s statutory scheme
is an unconstitutional exercise of state authority over a federal benefit. He makes this claim
without recognizing the federal law that is the source of the very power he claims must be
12

preempted. He fails to acknowledge that it was Congress which mandated the inclusion of “all
earnings and income of the noncustodial parent” in calculating child support. His theory that
Congress intended to preempt the field in regard to veterans disability benefits is expressly
refuted by the Congressional mandate that Michigan and other states establish child support
guidelines that include all earnings and income. None of the federal statutes cited by Petitioner
relating to disability benefits expressly prohibits states from using these benefits in calculating
support. The attempt to imply such a prohibition based upon an Petitioner’s interpretation of
language in those statutes is inconsistent with reason, logic or common sense. There is no
authority for this interpretation and none is cited by Petitioner. Moreover, the proposed
interpretation defeats the very purpose and intent of those statutes and skews applicable rule of
statutory construction.
II. FEDERAL LAW REGARDING VETERANS ADMINISTRATION DISABILITY
BENEFITS DOES NOT PRECLUDE STATES FROM CONSIDERING SUCH
BENEFITS AS INCOME FOR PURPOSES OF DETERMINING THE APPROPRIATE
LEVEL OF CHILD SUPPORT. STATUTES ENACTED FOLLOWING THE ROSE
CASE DO NOT CONFLICT WITH STATE COURT CHILD SUPPORT GUIDELINE
FORMULAS COUNTING THOSE BENEFITS AND THEREFORE, DO NOT PREEMPT
THE STATE COURT ACTION IN THIS CASE.
A. By failing to properly object to the use of the Michigan child support formula in
lower court proceedings on the basis of federal preemption, Petitioner has failed to
preserve this issue for review and certiorari should be denied.
Respondent did not raise the issue of federal law preemption in either his objections to
the Referee’s proposed order (Respondent’s Appendix O) or in his amended motion to set aside
that order. (Respondent’s Appendix N) Accordingly, the main issue raised by Petitioner in this
appeal was never properly preserved in the lower courts. Respondent raised the lack of issue
preservation in the Michigan appellate courts. They failed to reach the issue and denied
13

Petitioner relief on substantive grounds. Because the issue was not properly preserved in the
Michigan lower courts, review on a writ of certiorari is unwarranted. City of Springfield v
Kibbe, 480 U.S. 257, 107 S. Ct. 1114, 94 L.Ed. 2d 293 (1987).
Pursuant to Michigan procedure in post-judgment child support litigation, an aggrieved
party must commence proceedings to modify child support by filing a motion in the trial court.
The matter is then referred to the Friend of the Court for a contested hearing before a referee.
The referee makes a decision on the substantive legal and factual claims of the parties and
prepares a proposed order consistent with those findings. The proposed order becomes the ruling
of the trial court unless 1) a party files a written objection which “must include a clear and
consise statement of the specific findings or application of the law to which an objection is
made” and 2) schedules a hearing before a trial judge to have his objections heard. See
Michigan Court Rules, MCR 3.215(E)(4). While Petitioner did file a written objection to the
referee’s proposed order it did not allege that it was invalid because of federal preemption. Even
though he filed a trial brief with the referee detailing his claim that federal law prevented an
order of support based on his disability benefits, he did not object to the referee’s rejection of
those arguments. Under Michigan law, Petitioner should have been barred from raising the claim
in any future appellate proceedings. Since Petitioner did not schedule the matter for hearing, the
trial court judge signed the referee’s proposed order. After this order was entered, Petitioner
scheduled a hearing in the trial court and attempted to have the order set aside based preemption
and on this Court’s decision in Howell v Howell, supra. At he hearing he acknowledged that this
claim was not included in his written objection or motion. Petitioner’s attorney acknowledged
that his only written objection stated as follows: 1) FOC calculations are are (sic) inaccurate and
14

incorrect as to the amounts received by Plaintiff-Father, 2) the referee made an incorrect analysis
based off a very broad interpretation of 2.01(C)(4) [guideline formula provision that includes
veterans disability benefits] and Plaintiff’s VA Disability benefits that has been narrowed by
2.01(1)[guideline formula reference which does not exist] and the case law provided.”
Respondent’s Appendix, O. He also claimed that the Rose case had been overturned by Howell.
These objections did not preserve the issue raised on appeal in the Michigan Courts or in this
Petition.
B. Rose v Rose, 481 US 619; 107 S Ct 2029; 95 L Ed 2d 599 (1987) held that VA
disability benefits may be considered by state courts in determining the level of child
support even where those benefits are the sole source of income for the veteran and would
require that he pay his support from the benefit he receives.
The United States Supreme Court established a 30 year precedent holding that VA
disability benefits can be considered by state courts in determining the proper level of child
support. The Court found that federal statutes establishing the benefits, their distribution,
apportionment and protection from collection by creditors did not preempt state-court
jurisdiction over those benefits. An important component of the Court’s rationale was the
finding that VA disability benefits are specifically designed to support not only the veteran, but
the veteran’s family as well. State court orders with regard to child support are designed to
insure that the veteran’s family receives that intended benefit. This decision has never been
overturned and fully justifies the retroactive increase in support for Petitioner’s children.2 Its

2

Petitioner-Appellant argued that Rose had been “superceded” by Howell v Howell, 137 S Ct 1400 2017),
at the hearing on February 28, 2018. (2-28-2018 Tr 14) However, he never explained why he held this view. In the
Howell opinion the Supreme Court favorably referred to the Rose case, finding that its recognition of broad state
control over spousal and child support would allow state divorce courts flexibility in dealing with potential injustices
in application of claims of federal preemption.

15

justification is enhanced in this case because Petitioner was found to have willfully and
intentionally concealed the receipt of these benefits for the purpose of avoiding his support
obligation. Moreover, when he obtained a 69% reduction in his child support effective May 16,
2013 based upon the service connected disability which became the basis for VA benefits,
Petitioner understood and agreed to retroactive effect to any increase in support those benefits
justified. Equity demands that his fraud be corrected not absolved. He has waived any claim that
his disability benefits must be excluded by agreeing that once received, they could be used to
help support his children. He is estopped from claiming otherwise in either the trial court or in
this appeal.
Petitioner claims that Rose was wrongly decided or superceded. He suggests that its
viability has been undermined by Congressional enactments designed to deal with attempts to
divide VA disability benefits in the divorce setting. He cites no federal or state case law to
support his argument. To the contrary, courts throughout the country follow the declaration in
Rose that family law support matters are within the province of state law unless

“Congress has

positively required by direct enactment that state law be pre-empted.” See the following sampling
of cases: In re Marriage of Stanton, 190 Cal. App. 4th 547, 551, 118 Cal. Rptr. 3d 249, 252
(2010) holding the military expense pay can be treated as income for child and spousal support
determinations. Paylor v. Allegheny Cty. Family Div./Domestic Relations, No. 2:16CV1071,
2017 WL 4235944, at *8–9 (W.D. Pa. Sept. 25, 2017) holding that the state court's enforcement
efforts were consistent with the legislative intent of the federal statutes relied on by the Petitioner
to argue exemption. In other words, “the purpose of the federal exemption statute is to serve as a
shield for the veteran and his dependents, not to serve as a sword to be used by the veteran
16

against his dependents.” The court in Nelms v. Nelms, 99 So. 3d 1228, 1230–33 (Ala. Civ. App.
2012) adopting the rationale expressed in Rose, held “that a spouse whose income includes VA
disability benefits can be ordered to pay periodic alimony, even when all or a portion of the
alimony necessarily will be paid from those benefits.” Loving v. Sterling, 680 A.2d 1030,
1031–33 (D.C. 1996) held that Rose justified garnishment of a veteran’s bank account to collect
child support even though it was the depository of his disability benefits. In re Marriage of
Wojcik, 362 Ill. App. 3d 144, 164–67, 838 N.E.2d 282, 299–301 (2005) held that “barring
express preemption by Congress, a trial court should not ignore the circumstance that one party
receives monthly income in the form of a government benefit payment” and “that a trial court
may properly consider a party's receipt of veterans' disability benefits in determining a party's
obligation to pay maintenance, as well in determining whether the party is entitled to an award of
maintenance. In re Marriage of Anderson, 522 N.W.2d 99, 101–02 (Iowa Ct. App. 1994) held
that since veteran's benefits are not solely for the benefit of the veteran, but for his family as well,
an award of alimony out of those benefits was allowable where the remainder left him with
sufficient income to live comfortably.
Given the breadth of the decision in Rose, its declaration that disability benefits would
not be exempt absent an express Congressional declaration on the matter and its recognition that
VA disability benefits are specifically designed to benefit the veterans family this Court must
reject Petitioner’s attempt to undermine its continued viability.
C. 10 USC §1408 did not create a federal exemption for Petitioner’s disability
benefits barring them from consideration in determining the what level of child support is
best for his family.

17

We need to be clear about the Petitioner’s goal. He seeks to bend and contort the
language of this statute to create an unlimited exemption for his VA disability benefits insuring
that they will never be used by the courts of this state or any other state in determining how much
he should pay in support. Without any regard for the limited purpose of the legislation he relies
upon or the purpose of the benefit so restricted or its dramatic impact on the dependents of
veterans, he blithely concludes the Congress intended to enforce the selfish and irresponsible
interpretation that he has espoused in his Petition. His argument is absurd and illogical. His
interpretation of the statute contorted and inconsistent with the manner in which Congress has
accommodated the federal and state interests involved.
First, Petitioner-Appellant erroneously claims that there is a presumption that whenever
Congress enacts a benefit law or a law designed to shield that benefit from state legal process,
preemption is absolute. He claims that a state court’s ability to act upon or issue process with
respect to those benefits must be authorized by express statutory language. This premise was
properly rejected in Rose v Rose, supra. This Court’s long standing recognition that where a
state court is acting the family law field, federal preemption is not presumed, but must be
“positively required by direct enactment” continues to be the appropriate approach to state and
federal interaction when it comes to relationship between federal benefits law and state court
child support law.
“We have consistently recognized that the whole subject of the domestic relations of husband
and wife, parent and child, belongs to the laws of the states and not the laws of the United States.
On the rare occasion when state family law has come into conflict with federal statute, this Court
has limited review under the Supremacy Clause to a determination whether Congress has
positively required by direct enactment that state law be preempted. Before state law governing
domestic relations will be overridden, it must do major damage to clear and substantial federal
interests.” 481 US 919, 625.

18

Petitioner rejects this approach and claims express language in federal benefits statutes must
expressly provide authority for the states to act. He argues for adoption of this test without
regard to its detrimental affect on existing law and the protections Congress sought to put in
place by mandating states to enact guidelines for determining appropriate support and providing
for efficient enforcement of support orders in state courts.
Petitioner provides no authority for his interpretation of 10 USC §1408. No case has held
that Congress intended this legislation to exempt state courts from considering VA disability
benefits as income in determining child support. The statute was “to remove the effect of the
United States Supreme Court decision in McCarty v. McCarty, 453 U.S. 210 (1981)... by
permitting Federal, State, and certain other courts, consistent with the appropriate laws, to once
again consider military retired pay when fixing the property rights between the parties to a
divorce, dissolution, annulment or legal separation.” The legislative history makes no mention of
the purpose claimed by Petitioner in his Petition. See S. REP. 97-502, S. Rep. No. 502, 97TH
Cong., 2ND Sess. 1982, 1982 U.S.C.C.A.N. 1596, 1982 WL 26722 (Leg.Hist.). It does not deal
with child support. Its provisions do not even apply to Petitioner because he is not a retired
service member and does not receive VA disability benefits in lieu of retirement benefits. This
statute was designed to make military retirement subject to state court division, not to restrict the
state courts from considering military pensions in the division of property in a divorce setting.
Congress was not engaged in “a direct enactment” designed to preempt state law. It was clearly
trying to expand the reach of state court authority to protect the spouses of military retirees.
Petitioner-Appellant’s attempt to turn a law designed to limit a service member’s ability to treat
his benefit as exempt from state domestic relations court authority into a law which creates a

19

whole new exemption must be seen as an absurdity. It is an interpretation that is wholly without
legal or factual support.
Second, the purpose of the language added to §1408 that he relies upon was never
designed to create an exemption or a conflict with state court action . The statute was titled the
“Uniform Services Former Spouses’ Protection Act”. It was enacted in 1982 to overrule the
McCarty decision of the United States Supreme Court which did preclude a state court from
dividing military pensions as part of a divorce disposition.. See In re Marriage of Hopkins, 142
Cal.App.3d 350, 360, 191 Cal.Rptr. 70, 77 (1983). Its purpose was to permit state courts to treat
military retired pay as either separate or marital property, according to state law. It addresses
property division of retirement pay, not disability benefits, and permits a trial court to award up
to 50 percent of “disposable retired or retainer pay” to a nonmilitary spouse. It did create an
exception, however, for disability benefits in § 1408(a)(4). It is this exception that Petitioner
rests his claim for an exemption. This exception was designed solely to prevent double counting
of benefits. Nothing in the statute suggests that it was designed to create an exemption of the
proportion suggested by Petitioner-Appellant. Only disability benefits received in lieu of
retirement benefits are not subject to division. See 10 U.S.C. § 1201; 38 U.S.C. § 3105. Here,
Petitioner's disability benefits were not received in lieu of retirement pay and this case does not
involve a property division. Therefore, it falls outside the authority of 10 U.S.C. § 1408.
Petitioner's disability benefits were therefore not precluded from being considered in an award of
child support. See Repash v. Repash, 148 Vt. 70, 72–74, 528 A.2d 744, 745–46 (1987) holding
that the language of the exception for disability benefits paid in lieu of retirement did not
preclude the trial court’s consideration of VA disability benefits in determining spousal support.

20

In this case there is no evidence that Petitioner-Appellant received or was entitled to
receive military retirement pay. Therefore, there was nothing for him to “waive”. Moreover, this
case did not involve property division. Respondent-Appellee was not seeking to directly divide
Petitioner’s disability benefit or order the VA to pay a portion of them to Respondent as child
support. Accordingly, the statutory provision relied upon by Petitioner for an exemption does not
apply to him. The argument that it does is absurd. The argument that this provision created a
vast limitation on the power of a state family court to use VA disability benefits in determining
the appropriate level of child support is preposterous. Petitioner’s inability to provide any case
law to support his claim is not surprising. Indeed, even in cases where the veteran has waived
retirement to receive disability benefits, courts interpreting the exemption have held that it only
applies to restrict state courts from making direct divisions of disability benefits. Those courts
have held that they are not limited in considering both retirement and disability benefits in
calculating the entitlement and amount of spousal or child support. See Murphy v. Murphy, 302
Ark. 157, 158–59, 787 S.W.2d 684, 684–85 (1990); Allen v. Allen, 650 So. 2d 1019, 1019–20
(Fla. Dist. Ct. App. 1994); Parker v. Parker, 750 P.2d 1313, 1313–15 (Wyo. 1988); Casey v.
Casey, 79 Mass. App. Ct. 623, 634–35, 948 N.E.2d 892, 901–02 (2011).
Rather than arguing that this exemption applies only to an individual who actually
receives military retirement pay and actually waives it in order to collect VA disability benefits,
Petitioner argues that anyone receiving VA disability benefits is entitled to an exemption because
they could never have waived military retirement pay. This conclusion is truly absurd and
defeats the underlying purpose of the legislation. Petitioner is unable to point any language in the
statute that supports this result.

21

Petitioner’s argument has been was put forward before other state courts and rejected.
Petitioner’s counsel filed an appeal in Virginia raising the same issues in this case. In a
published decision the Virginia Court of Appeals in Alwan v Alwan, 70 Va App 599; 830 SE 2d
45 (2019) upheld the Virginia statute treating veterans disability benefit as income for child
support purposes and disposed of his claims of statutory preemption as follows:
“[The veteran] ... contends that Rose and its progeny, including Lambert, do not apply
here. As he argued in the trial court, father cites certain federal statutes to counter the viability
and reach of the Rose decision. However, the statutes he cites are essentially the same statutes
that were rejected as controlling in Rose. Therefore, we disagree with father’s argument that
veterans’ disability benefits should be excluded from income calculations when determining
support obligations based on the referenced federal statutes. We further disagree with his
contention that the decision in Howell requires his veterans’ disability benefits be excluded from
the definition of income for purposes of calculating a parent’s child support obligation. Howell
addressed the treatment and division of military disability benefits as "property" in divorce, not
as income used to support a veteran’s dependents. Howell, ––– U.S. at –––– – ––––, 137 S. Ct.
at 1403-06. The United States Supreme Court stated that it "need not and ... [will] not decide"
how a state court can "take account of the contingency that some military retirement pay might be
waived, or ... take account of reductions in value when it calculates or recalculates the need for
spousal support." Id. at ––––, 137 S. Ct. at 1406. Howell did not address the calculation of a
veteran’s income for child support purposes.” Alwan v. Alwan, 70 Va. App. 599, 610-11 (Va. Ct.
App. 2019).
In re Braunstein, 236 A.3d 870 (2020) contained an explicit rejection of Petitioner’s
assertions by the New Hampshire Supreme Court:
“In Brownell, we relied upon "the logic of Rose" to hold that federal law does not preclude a
state court from including veterans' disability benefits as income for alimony purposes. Brownell,
163 N.H. at 598-99 (quotation omitted). We did not then have occasion to apply Rose to child
support calculations. We now join the courts that have applied Rose and hold that the trial court
in this case did not err by including Husband's veterans' disability benefits as income for the
purposes of calculating child support.
To the extent that Husband contends that Rose has been "overruled" by subsequent amendments
to the pertinent federal statutes, he is mistaken. The statutes upon which Husband relies "to
counter the viability and reach of the Rose decision . . . are essentially the same statutes that were
rejected as controlling in Rose." Alwan, 830 S.E.2d at 50; see Iannucci v. Jones, No. 345886,
2019 WL 6977116, at *4 (Mich. Ct. App. Dec. 19, 2019) (reviewing the current versions of 42
U.S.C. § 659 and 38 U.S.C. § 5301(a)(1) and deciding that they "do not prevent state courts from
22

considering veterans' disability benefits as income in calculating child support and . . . do no[t]
preempt state law in this field").
Husband is also mistaken to the extent that he argues that Howell v. Howell, 137 S. Ct. 1400
(2017), abrogated Rose. "Howell addressed the treatment and division of military benefits as
'property' in divorce, not as income used to support a veteran's dependents." Alwan, 830 S.E.2d
at 51; see Howell, 137 S. Ct. at 1403-06. "Howell did not address the calculation of a veteran's
income for child support purposes." Alwan, 830 S.E.2d at 51; see Lesh v. Lesh, 809 S.E.2d 890,
899 (N.C. Ct. App. 2018) ("Nothing in Howell alters the holding in Rose that military disability
benefits are not required to be excluded from the definition of income for the purposes of
calculating the resources a party can draw upon to fulfill child support obligations.").
In fact, Petitioner’s position has been rejected by every state court addressing the issue.
He has cited no authority to the contrary.
D. 42 U.S.C.. § 659 was designed to afford state courts greater access to by a
veterans dependents to his disability benefits for purposes of paying child and spousal
support and does not exempt Petitioner-Appellant’s VA disability benefits from
consideration for purposes of determining the appropriate amount of child support.
Petitioner-Appellant takes a statutory provision designed to expand access to a veteran’s
disability benefits by the legal process of state family courts and attempts to impose an
interpretation that does the opposite. The language of the statute is as follows:
§ 659. Consent by United States to income withholding, garnishment, and similar proceedings
for enforcement of child support and alimony obligations
(a) Consent to support enforcement
Notwithstanding any other provision of law (including section 407 of this title and section 5301
of Title 38), effective January 1, 1975, moneys (the entitlement to which is based upon
remuneration for employment) due from, or payable by, the United States or the District of
Columbia (including any agency, subdivision, or instrumentality thereof) to any individual,
including members of the Armed Forces of the United States, shall be subject, in like
manner and to the same extent as if the United States or the District of Columbia were a
private person, to withholding in accordance with State law enacted pursuant to
subsections (a)(1) and (b) of section 666 of this title and regulations of the Secretary under
such subsections, and to any other legal process brought, by a State agency administering a
program under a State plan approved under this part or by an individual obligee, to
enforce the legal obligation of the individual to provide child support or alimony.
(h) Moneys subject to process
23

(1) In general
Subject to paragraph (2), moneys payable to an individual which are considered to be based upon
remuneration for employment, for purposes of this section-(A) consist of-(ii) periodic benefits (including a periodic benefit as defined in section 428(h)(3) of this title) or
other payments-(V) by the Secretary of Veterans Affairs as compensation for a service-connected disability paid
by the Secretary to a former member of the Armed Forces who is in receipt of retired or retainer
pay if the former member has waived a portion of the retired or retainer pay in order to receive
such compensation;
(B) do not include any payment-(iii) of periodic benefits under title 38, United States Code, except as provided in subparagraph
(A)(ii)(V).
This statute clearly indicates in subsection (a) that veterans disability benefits are monies
paid by the federal government to individuals the entitlement to which is based upon
renumeration for employment and are, therefore, subject to the legal process of the state court for
the purpose of collecting child and spousal support. Petitioner-Appellant ignores this more
general and expansive grant of accessibility to state court process and, by contorted construction,
reads the more specific and restricting provisions in subsection (h) as the sole basis for such
access. The restrictions in subsection (h) were included to deal with the potential of doubledipping into VA disability benefits, and were not included to define the only scope of state court
legal process. If this Court were to read subsection (h) as defining the scope of state court access
an anomaloy is created, i.e. only veterans who are also receiving military retirement pay and have
waived that entitlement to receive VA disability payments are subject to state legal process,
while veterans not entitled to those benefits are not. There is no rational basis for this distinction.
A large class of dependents of the latter group of veterans are disadvantaged in collecting child

24

and spousal support without cause. Petitioner’s interpretation is contrary to purpose of the
statute and deviates from the guidance provided in Rose, supra. Petitioner places his dependents
outside the benefitted class without a showing of an express Congressional intent to do so and
without showing how this classification is justified. This Court must reject this anomalous and
self-serving interpretation.
Moreover, §659 does not contain language which precludes a state court from including
VA disability benefits in Petitioner’s income to determine the level of child support he is
required to pay. The statute addresses the use of various collection devices that a state court can
use to access VA disability benefits directly. It is Respondent’s position that this access extends
Petitioner’s benefits and allows her to garnish or levy against those benefits. However, no such a
authority is required in this appeal because the only access granted by the trial court in this case
was the inclusion of VA disability benefits in Petitioner’s income to determine the amount of
support to be paid. The trial court was not ordering the garnishment or attachment or levy of
Petitioner’s disability benefits. Therefore, any restriction on the trial court that can be implied
from §659 does not apply to this case.
E. The Michigan Court of Appeals opinion correctly applied the doctrine of federal
preemption and correctly interprets the statutes involve in light of and as required by the
United States Supreme Court in Rose v Rose, supra.
Rejecting Petitioner’s claim that federal legislation creating veterans benefits is
“absolute”, the Court said:
“... Our United States Supreme Court has clarified that traditionally, ‘domestic relations is
... the domain of state law. ... ‘There is therefore, a presumption against preemption of state laws
governing domestic relations.’ ... Family and family-property law must ‘do major damage’ to
‘clear and substantial’ federal interests before the Supremacy Clause will demand that state law
be overriden.’” (citations omitted) (Slip Opinion p 4)

25

The court found that the statutes relied upon by Petitioner did not expressly prohibit state courts
from considering the amount he received in disability benefits in calculating the appropriate
amount of support. Therefore, the state court was not preempted by federal law.
The Court also properly held that the Rose decision had authoritatively passed on the
issue and held that since the federal statutes did not unequivocally indicate that VA disability
benefits were to provide solely for a veterans’ support, but were intended as compensation for
disabled veterans and their families, no federal preemption precluded the inclusion of those
benefits in the veterans income for determining child support. (Slip Opinion p 5) The Court
examined each statute and found that neither of them contained such an express restriction on
state court power. (Slip Opinion pp 5-6)
The Court also rejected any suggestion that the United States Supreme Court decision in
Howell v Howell, supra, had any impact on the viability of the Rose decision.
“Additionally, at the trial level, Petitioner argued that the United States Supreme Court's
decision in Howell, ___ US ___; 137 S Ct 1400, overturned Rose and supported his assertion
that veterans' disability benefits are not subject to division by state courts. Petitioner has not
raised the same argument on appeal, but rather he now indicates that Howell supports the
proposition that veterans' disability funds remain expressly protected under 38 USC 5301(a)(1),
leaving state courts without any authority to enter an order affecting these benefits. However, this
argument also lacks merit because the Howell decision says nothing about the propriety of a state
court's consideration of such benefits in calculating an award of child support. Rather, Howell
addressed only the treatment and division of military disability benefits as "property" in divorce,
not as income used to support a veteran's dependents. Id. at ___; 137 S Ct at 1403-1406.
Accordingly, we disagree with Petitioner's contention that the Howell decision had any impact on
the viability of the Rose decision. This is further buttressed by the fact that after the United States
Supreme Court released its ruling in Howell in 2017, several state courts continued to hold that
veterans' disability benefits could be considered as income for child support purposes. See, e.g.,
Lesh v Lesh, ___ NC App ___; 809 SE2d 890 (2018); Nieves v Iacono, 162 App Div 3d 669; 77
NYS2d 493 (2018).

26

III. PETITIONER HAS PROVIDED NO COGENT REASON FOR THIS COURT TO
UNDERTAKE A REVIEW OF ITS DECISION IN ROSE V ROSE AND OVERTURN
SETTLED LAW RELIED UPON AND IMPLEMENTED BY THE STATES.
A. Statistical data regarding claimed increases in the occurrence and severity of
service connected injuries is not properly before the Court because it was not made a part
of the record in either the state trial court or appellate courts. Moreover, Petitioner offered
no evidence that this data was used by Congress in formulating a change in the law
regarding the ability of state courts to consider disability benefits in determining the level
of child support.
Petitioner argues that Congress intended that veterans with service connected disabilities
be exempt from having their child support affected by their disability benefit. To explain why
this was intended, Petitioner recites statistical information about a claimed increase in the
incidence and severity of service connected injuries. He did not present this evidence in the trial
court and did not obtain consent from the Michigan appellate courts to make this evidence part of
the record on appeal. He offered no such argument in the trial court. On appeal, he simply
appended these statistics to his argument as if their accuracy and relevancy were inherently
admissible. As a result, Petitioner’s analysis and conclusions have never been tested. More
importantly, he presents no legislative history to show that this information prompted any of the
legislation he claims created this special class of exempt disabled veterans. He offers no
Congressional findings identifying these statistics as justification for the abrupt abolishment
long established state court efforts to comply with Congress’s mandate requiring the states to
rationalize, equalize and maximize child support. 42 U.S.C. §667; 45 C.F.R §302.56. He urges
adoption of a benefit program that ignores and violates the express provisions Congress did enact
to insure that service connected disability benefits provided for both the veteran and his
dependents. See 38 U.S.C §1115. He does not offer evidence that increasing the disabled
veteran’s benefit at the expense of his dependent children will cure the ills he outlines. Why
27

would Congress vest the disabled veteran with the discretion to make the initial determination of
how much his dependent children should receive from his benefit?
This part of Petitioner’s plea argues for a public policy change. He wants this Court to
implement it by agreeing to hear his appeal and then making a wholesale alteration in what has
been the law governing federal-state relations for over 30 years. Apparently this Court will
assess whether the new exemption from state court action will make the veteran whole. How
does exempting the veteran’s disability benefits from consideration in determining state orders
regarding child support advance the cause of the disabled veteran? How does this
unprecedented interpretation insure that Congressional concerns for the support of the veteran’s
dependent children are satisfied? Shouldn’t we assume that a concerned, mentally competent and
compassionate disabled veteran would want his dependent children living with their other parent
to be supported? Why would we make that disabled veteran the sole determiner of the amount of
support those dependents receive without any apparent standard by which to guide his or her
decision?
Petitioner hardly fits the profile of the sympathetic, disadvantaged disabled veteran. By
the time the litigation over child support ended he was gainfully employed and earning a
substantial income. There was no testimony that he faced challenges to his mental health or was
suicidal. There was no testimony presented at the trial level to suggest that he was suffering any
great financial hardship. In fact, he could not recall how he spent the $131,000 in veterans
disability benefits he received between May 2013 and April 2017. He acknowledged that none
of it was left. Because he concealed the receipt of these benefits, the family court did not assess
child support based upon the receipt of this money. If anything, the factual circumstances of this

28

case demonstrate why Petitioner’s claim to complete control of his benefits fails to insure the
goal of sustaining someone who became disabled in the service of his country so that he can
provide for himself and his family..
B. The apportionment procedure under 38 U.S.C. §5307 was intended to adjudicate
claims that a veteran’s use of his disability benefit fails to fulfill his responsibility for child
support in the context of what the state courts have ordered.
Petitioner suggests that the Veterans Administration should make the decision on how
much dependent children in the custody of their other parent should receive by making an
apportionment under 38 U.S.C. §5307. However, under the express authority given the Secretary
of the Deparment of Veteran’s Affairs, apportionment is limited to those situations where the
veteran is “not reasonably discharging his or her responsibility for the children’s support.” 38
C.F.R §3.450(a)(1)(ii); Batcher v Wilkie, 975 F. 3d 1333, 1335 (2020) The Veterans
Administration is required to make a determination in isolation and without the guidance of the
child support guidelines mandated by Congress and fashioned to meet the characteristics of the
state that created them. The statutes relied upon by Petitioner to justify overturning settled law
did not include the procedural rules and personnel resources needed for the Veteran’s
bureaucracy to handle a new role formally undertaken by the state courts in making these
determinations and enforcing them.
C. Congressional enactments regarding limits on the accessibility of disability
benefits to legal process do not constitute evidence that Congress intended there was no
room for the States to act when determining the appropriate level of a veteran’s support
obligation.
None of the statutory provisions which Petitioner claims require overturning the existing
law which allows state courts to consider Veterans disability benefits in determining the
appropriate amount of child support. 38 U.S.C. §5301 does not say that state courts cannot
29

consider disability benefits as income for purposes of establishing the appropriate level of child
support. It’s prohibition on assignability, exemption from taxation, and exemption from the
claims of creditors cannot be used to infer a prohibition on the right to consider disability
benefits in determining child support. Forbidding attachment, levy or seizure under legal or
equitable process is not the same as prohibiting a state family court from considering disability
benefits in formulating a child support award. The process which a state court is barred from
using is a legal or equitable process by which attachment, levy or seizure is obtained. No rational
argument can be made that this language constitutes a bar to a state family court considering
disability as income for purposes of implementing child support guidelines mandated by
Congress. In fact, in Rose, this Court has already rejected Petitioner’s interpretation of the same
language in the current statute.
“... Though the legislative history for this provision is also sparse, it recognizes two purposes: to
avoid the possibility of the Veteran’s Administration ... being place in the position of a collection
agency and to prevent the deprivation and depletion of the means of subsistence of veterans
dependent upon these benefits as the main source of their income. ... Neither purpose is
constrained by allowing the state court in the present case to hold appellant in contempt for
failing to pay child support. The contempt proceeding did not turn the Administrator into a
collection agency; the Administrator was not obliged to participate in the proceeding or to pay
benefits directly to the appellee. Nor did the exercise of state-court jurisdiction over appellant’s
disability benefits deprive the appellant of his means of subsistence contrary to Congress’ intent
for these benefits are not provided to support appellant alone.” 481 U.S. 619, 630 (1987).
This Court also determined that the grant of authority to the Secretary of Veterans Affairs
to apportion benefits to a dependent child did not evidence an intent to prohibit a state court from
ordering child support based on the veteran’s disability award, even if that was the only income
he had available to him.
“This jurisdictional framework finds little support in the statute and implementing
regulations. Neither mentions the limited role appellant assigns the state court’s child support
order or the restrictions appellant seeks to impose on the court's ability to enforce such an order.
30

The statute simply provides that disability benefits may be apportioned as may be prescribed by
the Administrator.… The regulations broadly authorize apportionment if the veteran is not
reasonably discharging his or her responsibility for children support.… In none of these
provisions is there an express indication that the administrator possesses exclusive
authority to order payment of disability benefits as child support. Nor is it clear that
Congress envisioned the Administrator making independent child-support determinations
in conflict with existing state court orders. The statute gives no hint that the exercise of the
Administrator’s discretion may have this effect. The regulations contain few guidelines for
apportionment and no specific procedures for bringing apportionment claims.
Apart from these inadequacies, to construe the statute as appellant suggests could
open for reconsideration a vast number of existing divorce decrees affecting disabled
veterans and lead in future cases to piecemeal litigation before the state courts and the
Administrator. Given the traditional authority of the state courts over the issue of child
support, their unparalleled familiarity with local economic factors affecting divorced
parents and children, and their experience in applying state statutes that do contain
detailed support guidelines and established procedures for allocating resources following
divorce, we conclude that Congress would have would surely have been more explicit had it
intended the Administrator’s apportionment power to displace the state court's power to
enforce an order of child support. Thus, we do not agree that the implicit preemption appellant
finds in the statute is ‘positively required by direct enactment’ or the state courts award of child
support from appellant’s disability benefits does major damage to any clear and substantial
federal interest created by this statute.” (Emphasis supplied) 481 U.S. 619, 626-628.
This analysis continues to provide proper guidance. Petitioner has failed to advance any
reason to adopt his absolutist approach to federal preemption. The impact of applying such an
approach does great harm to the goals of veterans benefit law to provide financial assistance to
both the veteran and his dependents.
This deleterious impact can be seen in this case. Petitioner reduced the amount of support
for his children by claiming disability and by concealment and deception appropriated every
dollar of his disability benefits to his own benefit and control despite his legal obligation to
support his children and to use his disability benefit for that purpose. It is regrettable that
Petitioner cannot acknowledge the harmful effect of his refusal to pay a share of his benefit to his
dependent children simply because they were in the custody of his former spouse. The manner in

31

which existing statutory interpretations accommodate the interaction of state and federal law in
this area should not be rejected by the absolute approach urged by Petitioner. His conduct in this
case was outrageous, fraudulent and an unprincipled violation of his duty to support his children.
The law in effect at the time he did this clearly required disclosure and, if necessary to meet his
support obligation, payment from those benefits for that purpose. Petitioner did not seek
declaratory relief on the basis of his claimed absolute right to control what the VA would pay on
behalf of he and his children. He did not pay the benefits into escrow pending the outcome of
such litigation. He concealed his receipt of the funds and spent them in a manner which he can
no longer recall, despite the fact that the amount paid in benefits included allocations for his
dependent children. Now, at great expense to Respondent, Petitioner comes to this Court
requesting that it sanction these deceitful actions by adopting his proposed change in the law. He
does so even though he and his attorney were sanctioned for their conduct in the presentation of
this litigation and have still not paid those sanctions.
D. This Court’s decision in Howell did not overrule or undermine Rose and did not
suggest that State child support guideline laws are preempted.
This Court’s decision in Howell did not overrule Rose and did not create the exemption
Petitioner espouses. When Congress enacted legislation which gave state family law courts the
power to divide military retirement pay Howell held that this power did not extend to such pay
that is waived in order to receive veterans disability pay. States had no power to divide disability
benefits even though a reduction in a former spouses share of military retirement pay resulted
from the waiver. Disability payments did not take on the divisible nature of the military
retirement pay when it was selected in lieu of military retirement pay upon the veterans disability.
However, this Court’s decision expressly stated that it was not overturning Rose and that while
32

state family courts could not merely order payment of an equal portion of the VA disability
benefits, they were free to take the potential reduction in the value of the divisible military
retirement pension into account in awarding other property or calculating or recalculating the
need for spousal support.
This flexibility afforded state family law courts is also appropriate with respect to child
support. While a State court could not order the Veterans Administration to pay disability
benefits to a custodial parent as child support, it could use the amount of benefits awarded and
paid to the non-custodial parent in calculating the amount child support he or she is required to
pay. The freedom and flexibility afforded by allowing this calculation insures that the disability
benefit is available to the non-custodial parent’s dependent children. This accommodation to the
States insures that children are financially supported and recognizes the fact that the level of
disability benefits themselves are based upon the non-custodial veteran’s dependents. The
veteran in Rose conceded that nothing in the structure or payment of disability benefits could be
seen as a bar to a state family law court from considering the amount of the benefit in
determining the appropriate amount of child support. Rose v Rose, 481 U.S. 619, 626.
Petitioner began receiving disability benefits long after the divorce settlement was entered. The
child support provisions of divorce decree were subject to post-judgment modification based
upon a change in circumstances. As a result, Petitioner commenced this litigation by filing a
request to reduce his child support based upon his disabling service connected injury. While it
was acknowledged that his decline in earning capacity due to this injury justified a reduction in
the level of his support the order reducing support allowed reinstatement of his support
obligation should he be awarded veterans disability benefits. Petitioner agreed that the receipt of

33

disability benefits would be a basis for reopening and recalculating his support obligation
retroactively. His fraudulent concealment of the receipt of these benefits prevented summary
reinstatement of his support obligation and allowed him to misappropriate that portion of his
benefit that should have been paid to his dependent children. His concealment of his receipt of
these benefits also rendered apportionment by the Veterans Administration impossible. For over
three years he failed to contribute any of his benefits to his dependent children even though the
amount of money he was receiving was enhanced by claiming them as such. His outrageous
conduct and dishonest misappropriation should disqualify his effort to enlist this Court’s help in
changing the long established law so as to justify his behavior after the fact and by rendering
State courts powerless to rectify the wrong and enforce the agreement that allowed him to reduce
his support obligation in the first place. Petitioner should be estopped from seeking relief in light
of his conduct. He effectively waived any claim to the newly fashioned exemption he urges upon
this Court.
E. Current law with regard to the right of States to consider VA disability benefits
as income for purposes of child support determination does not “repurpose” federal law
creating those benefits.
Petitioner claims that permitting the states to consider veterans disability benefits as
income in determining the appropriate level of support constitutes a “repurposing” of the
benefits. This claim is absurd and provides no rationale for changing the law.
First, allowing the states to make provision for the support of dependent children is a goal
embodied in the creation of the disability benefit. Congress recognized that a service connected
disability reduced the veteran’s earning capacity and impacted his ability to pay support.
Therefore, the level of the benefit is enhanced by the disabled veterans claim that he has a

34

dependent spouse and children. Congress intended dependent children to benefit from the
veterans disability award and was an essential purpose or goal of the award.
Second, Congress is charged with knowledge that the law was well settled when the
disability benefit was created and statutory restrictions were imposed. The amendments to the
statutes cited by Petitioner as basis for his exemption were enacted after the decision in Rose.
This Court’s decision in Rose made it clear that states were permitted to determine the
appropriate level of child support based upon the enhancement of income the benefit affords. It
would be absurd to do otherwise. The undertaking of such a goal is wholly consistent with the
nature of the benefit.
Third, in establishing an apportionment option, Congress recognized that the Veteran’s
Administration should be able to insure that dependents are taken care of by making direct
payments to them. In creating this option, however, Congress recognized that the VA should
only be involved in ordering such payments where the dependent children do not reside with the
disabled veteran and only upon a finding that the veteran is “not reasonably discharging his or
her responsibility for the ... children’s support.” 38 C.F.R. §3.450(a)(1)(ii). The Secretary of
the Department of Veterans Affairs was fully aware that state family courts establish support
levels consistent with the needs of the children and the resources of the parents and that the
Department’s role would be limited to cases where the veteran failed to use is benefit for the
welfare of his dependent children.
Fourth, if Congress intended to create a disability benefit that was impregnable and off
limits to the states, they could have expressly said so. They did not. Moreover, if that was
Congress’ intent to do so why did it not create a nation-wide system complete with federal child

35

support guidelines and require an apportionment in every state divorce case where a disabled
veteran has minor children and/or in every state court post-judgment case where there has been a
change in circumstances? We know they did not because it was not Congress’ intent. They were
creating a benefit that was subject to restrictions, but capable of being considered by the long
established state law system and practice designed to make rational decisions about the needs of
dependent children.
Current law does not “repurpose” veterans service connected disability benefits by using
state resources to insure that those benefits are allocated in a manner that benefits both the
veteran and his dependent children. The system Petitioner urges upon the Court is one that fails
to insure that dependent children are take care of and allows the veteran to control disposition of
his benefit even though it may deprive his children of the financial support they need. It is a
system Petitioner took of advantage of by concealing receipt of his benefits and making them
unavailable to meet his children’s needs.
F. The fact that Congress is not expressly preclude the State courts from using VA
disability benefits in child support calculations is significant evidence that the current law
is an appropriate accommodation of the state and federal laws dealing with the relationship
between the federal benefit and the state laws regarding how those benefits relate to the
appropriate level of child support.
Petitioner claims that his absolute preemption approach must be adopted because
Congress did not specifically preclude the states from considering VA disability benefits in
calculating child support. Respondent asserts that existing law in this area views this same fact
as evidence that there is no Congressionally created bar on the power of the states to do so. The
more appropriate and settled view is that the failure of Congress to prohibit what the Michigan
legislature has done in response to federal mandates means that Michigan’s guidelines which

36

allow the consideration of disability benefits in determining the appropriate level of child support
do not violate federal law and are not preempted by Congressional enactments creating and
limiting access to these benefits.
Petitioner’s approach is fraught with dangers for which there are no Congressional cures
built-in. The divorced veteran with dependent children living with the other parent would be free
to conceal his disability benefits and spend them on whatever he wishes, preventing the state
courts from formulating a support order that meets the actual cost of rearing children. The
Congressional goals of improving the consistency and equity of child support awards are
sacrificed. Improved efficiency of the court procedures mandated in the child support guideline
system for adjudicating and enforcing child support awards is lost. In its place, Petitioner offers
the apportionment process which is dependent upon the custodial parent making and litigating a
claim. Not only is there no mandatory processing of such claims arising from any state court
custody order, there is no guarantee the custodial parent would even be aware of the veteran’s
eligibility for, pursuit of or actual receipt of the benefit. There is no federal guideline to insure a
reliable, uniform and efficient support system. Congress left the VA Administrator with the
obligation to determine whether “the veteran is not reasonably discharging his or her
responsibility for the ... children’s support.” 38 C.F.R. §3.450(a)(1)(ii). Congress did not direct
the Secretary to research these issues and formulate standards for what is appropriate or sufficient
support. Not only is this formula amorphous and without standards it is framed in the negative.
Rather than pledging a search for an amount of support that it actually takes to rear children, this
formula focuses upon a claimed insufficiency without a standard for determining what is
sufficient.

37

If, as Petitioner argues, Congress created a singular benefit conferring complete control to
the disabled veteran as a means of attracting people to the military, it will have done so on the
backs of the veterans’s dependents. There is no evidence that Congress made such a choice. This
Court should not overturn the settled law in this area. The current law creates a workable
accommodation of state and federal interests by allowing the disability benefit to meet the needs
of both the veteran and his family.
RELIEF
Respondent requests that this Court deny Petitioner’s Petition for Writ of Certiorari.
June 28, 2021

Respectfully submitted,
/s/ Lawrence J. Emery
Lawrence J. Emery (P23263)
Attorney for Respondent
924 Centennial Way, Ste. 470
Lansing, MI 48917
(517) 337-4866
ljemery@prodigy.net

38

